~

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Murray
Rojas v. United States of America, was sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day service and e-mail to the
following parties listed below, this 13th day of May,
2021:
Elizabeth Prelogar
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N. W.
Washington, DC 20530-0001
(202) 514-2203
Supreme CtBriefs@usdoj.gov
Counsel for Respondent
Paul D. Clement
Counsel of Record
Erin E. Murphy
Matthew D. Rowen
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Robert E. Goldman
535 Hamilton St.
Allentown, PA 18101
Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 13, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

y

ublic

-=

[seal]

AMY TRIPLETI MORGAN

Attorney at Law
Notary Public, State of Ohio
My Commission Has No Expiration
Date. Section 147.03 O.R.C.

